19-679
AMY CORBITT, INDIVIDUALLY AND AS PARENT AND NATURAL GUARDIAN OF SDC,
A MINOR,
Petitioner,
v.
MICHAEL VICKERS,
Respondent.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that BRIEF OF CROSSIDEOLOGICAL GROUPS DEDICATED TO ENSURING OFFICIAL
ACCOUNTABILITY, RESTORING THE PUBLIC’S TRUST IN LAW
ENFORCEMENT, AND PROMOTING THE RULE OF LAW AS AMICI
CURIAE IN SUPPORT OF PETITIONER contains 5,937 words, excluding
the parts of the document that are exempted by Supreme Court Rule 33.1(d).

/s/ Jay R. Schweikert
Counsel of Record

